=
I

COCKLE

2311 Douglas Street l B f E-Mail Address:
a riefs
Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1140

ANGELA DEBOSE,
Petitioner,

ve
UNIVERSITY OF SOUTH FLORIDA
BOARD OF TRUSTEES,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 17th day of March, 2021, send out
from Omaha, NE 1 package(s) containing 1 copies of the BRIEF IN OPPOSITION TO PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RICHARD C, MCCREA, JR.
Counsel of Record
GREENBERG TRAURIG, P.A.
101 E. Kennedy Blvd.,

Suite 1900

Tampa, FL 33602
mecrear@gtlaw.com
(813) 318-5723

Counsel for Respondent

Subscribed and sworn to before me this 17th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Sooo’ Oudiaw-h, Bale

Affiant

s GENERAL HOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

 

 

Notary Public 40809
Attorneys for Petitioner
Angela W. Debose

1107 West Kirby Street
Tampa, FL 33604
813-230-3023

No e-mail address available

Party name: Angela W. Debose
